>

P) A
No.

r7: LA P p*

R F ~ ^ .ibb ORIGINAL
Supreme Court, U.S.
FILED

MAR 3 0 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Wilbett 'Jarfies Vfeasev Jr.

— PETITIONER

(Your Name)
vs.
UNITED STATES OF AMERICA

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

fc?IFTH

CIRCUIT

COURT APPEALS

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Wilbert James Veasay Jr.

(Your Name)
FMC FT.Worth/P.0.BOX 15330

(Address)
FT.Worth Tx ^6119
(City, State, Zip Code)
N/A

(Phone Number)

DECEIVED
MAR 17 2071
9BSf£FcTouBCTL5H

QUESTION(S) PRESENTED
(1) Did District court's Jury instruction impermissibly impair and
redirect the jury's considerations of the evidence by adding word
from Civil Regulations taint these proceeding in violation of
Petitioner's Due Process Rights?
(2) Did the Jury Instructions added Civil Regulations sway the
Jury and taint these Judicial proceedings?
(3) Did the added erroneous- Jury Instructions usurped the jury's
fact finding role?
(4) Did the presence of a "biased" juror violate Petitioner's
Sixth and Fifth Amendment Rights?
(5) Did a biased juror taint the Constitutional standards
of a "Fair"Trial?
(6) Did district court abuse its discretion by failing to
remove the biased juror?
(7) district court .■ Appellate court abused discretion by using
"Non-Shepard"approved documents for their determinination in
applying U.S-S.G § 2B1.1(b)(7)(iii)?
(3) Was sentence procedurally unreasonable by applying enhancement
based on Non-Sheppard approved documents?

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF AUTHORITIES CITED
CASES
Shepard V. United States,544 US 13
United States v. Garza-Lopez/410 F.3d 268

STATUTES AND RULES

OTHER

PAGE NUMBER
4
5

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-5

REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

-Court of Appeals Denial

APPENDIX B_ No Appeal attached Court Appointed Attorney
failed to disclose a copy to client

APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
court
appears at Appendix
_ to the petition and is
[ ] reported at ____________________________ e________■ or>
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

A

to

to

JURISDICTION

[xi For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[x] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____ •
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_____ _
[ ] A timely petition for rehearing was thereafter denied on the following date:
----------------:---- ----------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including--------!________ (date) on_____ __________ (date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Petitioner's Fifth Amendment Rights [Due Process]
and Sixth Amendment Rights have been deprived,because he was not
given a "Fair Trial/"under the 6th Amendment guidelines which does
invoke due process protections because: [1] allowing a jury instruction
that manipulates the juror fact finding process nullifies all the
Constitutional guaranteed unalienable by the Federal Constitution
allowing an instruction in a criminal proceeding to add "Civil
Regulations/"cleatly disrupted the jury's fact finding process and
undermined, the outcome of this entire case thus denying Petitioner
•S'

♦

'K

.-»•

a "Fair Trial/"as guaraateed under the 6th Amendment to be a sham
a hoax/nothing more than informal/it not only tained these proceedings
it undermined the outcome and undermined the Integrity of this court
its a "Miscarriage of Justice."
(2)

The presence of a established biased juror to be allowed
to not only sit in the proceeding but sway other jurors to her
discriminatory thinking once again violates that unalienable Right
to a "Fair"Trial/even after she demonstrated her partial and bias
towards the defense she was allowed to remain/despite this juror
stating on the record having issues with -her eyes after surgery and
cleatly medical issues with medical professionals is a conflict of
Interest that district court should have seen/nevermind allowing this
disgruntal juror against medical professionals rule on a case about
medical personell/medical establishements ect..
(3)
Because the Court based a 4 point enhancement [added punishment]
base soley on the PSR/which as stated by the 3upff«nie court in
Shepard v. United States/544 US 13/125 S.ct 1254(2005)/as unreliable
not factual evidence and must be supported by more.District Court erred
in enhancing this sentence soley on PSR/its clear and obvious because
it conflicts with the Supreme Court and should be determined whether
imposed unreliable under Booker.

3

STATEMENT OF THE CASE
condemn a United States citizen on an
Unconstitutional jury instruction, a biased juror violates both the
Fifth and Sixth Amendment protections/because it undermines the
"Fairness,"and equal opportunity to be heard,this denial of a "Fair"
Trial is a Manifest Miscarriage of Justice.
By allowing jury instructions in a criminal case
to include "Civil Regulation,"deary to manipulate the jury and sway
in light Mosthfadorable to the Government,against the defense it
implicates a denial of a "Fair"Trial,violation of Due Process it
taints and questions the Integrity of the Court and is usurped the
jury's fact finding role. It is a Miscarriage of Justice to allow
such due process violations to stand,to allow a biased juror to
remain seated on the jury tainting this court/because the record
reflects bias towards the defense, the district court's failure to
dismiss this juror violated the very essence of Due Process, because
it was clear the Conflict of Interest/having a juror make biased
comments on the court record and are displaying her dismay about
medical problems caused by medical professions while sitting on a
case that clearly revolved around medical personell,medical establish­
ments /doctors,nurses ect / / demonstrated bias towards the defense
clealry establishing biasness.
To allow these Controversial Constitttional
guarantees to be ignored violates the essence of a "Fair,"proceedings.
To soley base an enhancment [add punishment]
based soley on the PSR alone violates the standards set forth by the
Supreme Court as stated in Shejoard v United States,544 US 13,125
S.ct 1254 (2005),because a pre-sentence report is not considered
a "Shepard"approved document pursuant to the Supreme Court.

4

STATEMENT OF THE CASE CONTINUED
Courts cannot rely on a pre-sentence report [PSR]
characterization of predicate offense .See; United States
v.
Garza-Lopez/410 F.3d 26% t^thcir 2005), the court than soley'relied
on the PSR should examine Shepard approved documents [such as an
indictment] to determine the added punishment.
The District Court erred in enhancing the sentence
based soley on a Non-Shepard approved document, this error is
clear and obvious, because it conflicts with the ruling by the
Supreme Courtin Shepard. u.S.S.G. § 2b1.1(b)(7)(iii),the record
demonstrates based on factual evidence is clear and concise it
reflects that the amount actually proven to be was 6,009.22 not
the 9,500,000 the government used to establish the enhancment and
it requires reversal and re—sentencing,because the district court
erre d in enhancing this sentence,enhancing punishment,this error
is clear and obvious and therefore unreasonable.See United States
v. Ochoa-Cruz, 442 F.3d !$65(5thcir 2006) and warrants dismissal.

5

REASONS TO GRANT THE WRIT OF CERTIORARI

(1) Should be granted due to the, denial of an Impartial and
Fair Trial
(2) Should be granted by the lower courts allowing a clearly
biased juror
(3) should be granted to preserve the Integrity of this court
(4) should be

granted because of the allowance of enhanced

punishment with a Non-Shepard approved document and no other
factual eveidence to support erroneous findings.
(5) Should be granted due to the deprivation of constitutionally
protected rights
(6) to uphold unalienable Rights established by our forefathers
(7) To prevent a further Manifest Miscarriage of Justice
(8i) Any other reason this Honorable Court deems necessary

6

CONCLUSION

To allow a decision to stand that affects the Integrity
the "Fairness/" and public reputation of the Judicial system/because
the proceedings as disclosed in this case clearly violated the
Petitioner's Fifth and Sixth Amendment Rights/unalienable rights
that can never be taken/as clearly dictated by our Forefathers to
protect citizens such as myself from Unconstitutional Trials because
biased juror and unconstitutional jury instructions tainted this
proceeding before it even began. Civil Regulations have no part
in a criminal proceeding where a defendant faces a jury on innocence
or guilt of a criminal statute not civil. This instruction stripped
the jurors of their fact finding role. And enhancing punishment to
a already excessive sentence based on Non-Shepard approved documents
as decided by this court is clearly unreasonable. For this Court
to allow these Unconstitutional actions to stand not only taints the
Judicial syste/process but also questions the Integrity of this
Court and taints the unalienable rights which this Country was
founded upon.
This case should be dismissed or remanded back to the
District Court for a New Trial by another fact finder.
These "Unfair"proceedings violates both Fifth and
Sixth Amendment rights that our forefathers guaranteed to be
unalienable rights that clearly affects the Integrity of the
Court and the very fabric of the Federal Constitution.

7

